Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives



                          Progress and Challenges in
For Release on Delivery
Expected at
10:00 a.m. EDT
Wednesday
October 5, 2011           Developing and
                          Transitioning to the Next
CC-2011-036



                          Generation Air
                          Transportation System


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

Thank you for inviting me here today to testify on the Federal Aviation
Administration’s (FAA) progress in developing and transitioning to the Next
Generation Air Transportation System (NextGen). As you know, NextGen involves a
significant overhaul of the National Airspace System (NAS) to shift from ground- to
satellite-based air traffic management. NextGen is FAA’s most complex effort to date
and will require multibillion-dollar investments from both Government and airspace
users. Since the effort began in fiscal year (FY) 2004, we have reported on cost and
schedule risks as well as challenges that FAA must resolve to successfully implement
NextGen. In September 2009, a government-industry task force—established at
FAA’s request—made 32 recommendations for accelerating NextGen’s deployment 1
(see exhibit A).

In response to the task force recommendations, FAA significantly adjusted its
NextGen plans and budgets and established ways to collaborate with industry on
planned actions. However, a number of program management challenges remain,
including delivering near-term benefits and resolving problems with ongoing projects,
all within a constrained budget environment. Today, I will discuss three challenges
that will impact FAA’s ability to manage NextGen’s implementation and realize its
benefits: (1) addressing concerns with FAA’s timely execution of recommendations in
five critical areas, (2) resolving technical and program management problems with the
En Route Automation Modernization (ERAM) program, and (3) managing program
costs and schedules with NextGen’s transformational programs.

IN SUMMARY
The task force recommendations fall across several broad areas intended to enhance
airspace capacity and alleviate congestion. To date, FAA has focused its attention in
one critical area—improving airspace around major cities—because this effort can
provide near term benefits to users by fully using equipment already onboard aircraft.
However, industry and users are expressing concerns about the effort’s pace and
execution since FAA has yet to clarify timelines for improvements at key sites or
integrate recommendations from other key areas that are critical to this initiative.
Central to realizing benefits from this and other NextGen efforts, however, is the
successful implementation of ERAM—a $2.1 billion system for processing flight
data. Significant software-related problems have pushed ERAM’s schedules well
beyond original completion dates and increased costs by hundreds of millions of
dollars. These problems have exposed a number of fundamental programmatic and
contract management concerns. For example, despite cost and schedule deficiencies,
FAA has continued to pay cost incentives to the contractor. In addition, FAA has not
approved total cost, schedule, or performance baselines for any of NextGen’s
1
    RTCA, “NextGen Mid-Term Implementation Task Force Report,” September 9, 2009.


                                                                                    1
transformational programs nor developed an integrated master schedule for managing
and executing NextGen.

BACKGROUND
To accomplish NextGen’s long-term goals, Congress mandated in 2003 that FAA
establish the Joint Planning and Development Office (JPDO) and create a plan for
implementing NextGen by 2025. 2 While FAA’s initial planning focused on this
timeframe, it has more recently emphasized near- and mid-term initiatives.

To solidify commitments from both Government and industry, FAA asked RTCA 3 to
examine the NextGen operational improvements planned for the 2012–2018
timeframe and help develop business cases to support and implement mid-term
capabilities. In September 2009, the RTCA task force delivered its final report to
FAA, which identified the following key issues:

    • Users are willing to support FAA communications, navigation, and surveillance
      infrastructure programs that require user investments only if those programs
      provide a clear and unambiguous path to immediate and tangible benefits to the
      users.

    • Focusing on delivering near-term operational benefits, rather than on the entire
      infrastructure, would help gain operator confidence in FAA plans and encourage
      users to invest in NextGen. A key element for accomplishing this is obtaining
      industry and FAA agreement on common metrics to measure benefits.

    • Assigning responsibility, accountability, authority, and funding within the
      Agency is critical to accomplish all associated and necessary non-infrastructure
      tasks (i.e., development of procedures and policy) and to achieve NextGen
      benefits.

The task force made 32 recommendations across areas to take advantage of existing
technologies and on-aircraft equipment. These recommendations were intended to
quickly generate user benefits, support cross-cutting improvements to air traffic
management and communications, and encourage operator investment and confidence
within the aviation community in FAA’s ability to implement new capabilities.




2
    Vision 100—Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).
3
    Organized in 1935 as the Radio Technical Commission for Aeronautics, RTCA, Inc., is a private, not-for-profit
    corporation that develops consensus-based recommendations regarding communications, navigation, surveillance, and air
    traffic management (CNS/ATM) system issues. It functions as a Federal Advisory Committee.


                                                                                                                       2
DELAYS IN ADDRESSING KEY TASK FORCE RECOMMENDATIONS
COULD DISCOURAGE INDUSTRY INVESTMENT IN NEXTGEN
FAA has primarily focused its efforts on one of the most critical areas—improving
airspace efficiency around major cities. However, it has not defined when users will
benefit from the effort. As a result, industry representatives have expressed concerns
over FAA’s execution with this and related projects—which will ultimately make
them reluctant to invest in NextGen equipage and advance NextGen at key locations.
Delays with this and other NextGen initiatives are likely to continue since FAA has
not made critical, longer term design decisions on NextGen ground and aircraft
systems.

FAA Is Responding to Task Force Recommendations but Has Made Only
Limited Progress in Key Areas
FAA is addressing the RTCA recommendations, but its efforts are delayed in key
areas, such as metroplex initiatives, surface operations, and data communications (see
table 1).
Table 1. Status of Efforts To Address RTCA Recommendations in Five Key Areas

Metroplex Airspace - Improve airspace affecting multiple airports near large metropolitan areas
FAA has made the most progress in this area. FAA has identified 21 metroplex sites, developed a
method to prioritize them, and completed 5 studies. However, a lack of available staffing and
development of the metroplex project plan delayed the design and implementation phases for the first
two sites.
Airport Surface Operations - Improve management of airport taxiways, gates, and parking areas
Surface demonstration studies ongoing but not integrated with FAA’s metroplex plans. After 18
months, FAA is just now establishing an office for a single point of responsibility for surface.
Runway Access - Improve the use of converging or closely spaced runways during low visibility
conditions
Runway studies ongoing. FAA adopted the task force dates and locations for closely spaced parallel
operations projects but has not defined locations and dates for key recommendations (e.g., a
precision surveillance system for runways and a new automated tool to maximize benefits of routes).
High-Altitude Cruise - Improve high-altitude flight by better using available airspace to increase
capacity and reduce delays
FAA has not integrated an automated controller tool for managing aircraft with other Traffic Flow
Management tools. The task force wants this completed in 2011, but FAA’s target date is 2014.
Data Communications (DataComm) - Enable more efficient use of available or forecast capacity
FAA has already delayed this capability 2 years from 2016 to 2018. Industry needs assurance that
the implementation date for en route services is solid.
Source: FAA and industry officials

The task force remains concerned with FAA timelines for these projects. For example,
the task force stated that if some DataComm capabilities are delayed to 2018, as FAA


                                                                                                     3
has proposed, users will need to revisit their business cases and commitment to
advance NextGen. Resolving timeline delays and location differences between FAA’s
plans and the task force’s recommended sites will further slow progress in all of these
key areas.

FAA Has Launched Its Metroplex Initiative, but Timelines, Benefits, and
Methods To Integrate Key Initiatives Are Uncertain
The task force and FAA identified the metroplex initiative as a key initial area that
could provide the most near-term benefits. This 7-year effort is intended to improve
the flow of air traffic and reduce delays at congested airports in 21 major metropolitan
areas. FAA has completed initial studies at 5 of the 21 metroplex locations and has
2 more sites under way. Work at each site will consist of study and design phases,
which will take about 3 years (see figure 1). However, unresolved issues could slow
its deployment, increase costs, and delay benefits. Specifically, FAA has not
established definitive start dates or detailed milestones. Further, the current metroplex
effort is limited and not what the task force recommended in terms of taking
advantage of new technologies and more advanced procedures. As a result, airspace
users are concerned about both the pace and execution of this effort. Task force and
industry representatives want FAA to adopt an approach that integrates
recommendations from other key areas, such as better managing surface operations at
critical metroplex sites.
                          Figure 1. Notional Timeline for Each Metroplex Site




     Source: FAA

Achieving the goals of the metroplex initiative will also require timely deployment of
more efficient flight procedures. However, as we noted in December 2010, 4 FAA’s
new flight procedures are mostly overlays of existing routes. Airlines advocate that

4
    OIG Report Number AV-2011-025, “FAA Needs To Implement More Efficient Performance-Based Navigation
    Procedures and Clarify the Role of Third Parties,” December 10, 2010. OIG reports and testimonies are available on our
    Web site at http://www.oig.dot.gov/.


                                                                                                                        4
FAA should develop procedures that achieve maximum benefits, such as shorter flight
paths and fuel savings. FAA’s metroplex initiative focuses primarily on adding area
navigation (RNAV) 5 procedures and optimizing climb and descent profiles for
existing routes. FAA’s plans do not focus on the more advanced required navigation
performance (RNP) 6 procedures to take full advantage of equipment already onboard
aircraft for curved approaches. To address these concerns, FAA completed a study 7
that identified numerous initiatives for streamlining the process for deploying new
procedures; however, FAA estimates it may take as long as 5 years to implement the
initiatives.

FAA Has Not Made the Decisions Needed To Move NextGen From
Planning to Implementation
Task force industry representatives want FAA to move from NextGen planning and
demonstration to actual implementation. However, this will be difficult in terms of
making the internal Agency changes required for a new system as well as defining
longer term plans for NextGen. First, FAA faces significant organizational, policy,
logistical, and training challenges. For example, to successfully complete its planned
actions, FAA will have to work across its diverse agency lines of business, but this
has been difficult in the past. As we testified in July 2009, organizational barriers and
fragmented efforts hindered FAA’s process to approve new flight procedures. 8
Second, FAA has not yet addressed critical decisions that affect the cost and schedule
of NextGen. These include (1) what new capabilities will reside in the aircraft or in
FAA’s ground-based automation systems, (2) the level of automation for controllers
that can realistically and safely be achieved, and (3) the number and locations of air
traffic facilities needed to support NextGen. All of these elements are crucial to the
success of NextGen.

ONGOING PROBLEMS WITH ERAM’S IMPLEMENTATION HAVE
CAUSED SIGNIFICANT DELAYS THAT IMPACT THE COST AND
PACE OF NEXTGEN
FAA’s primary goals for NextGen, such as increasing airspace capacity and reducing
flight delays, depend on successfully implementing ERAM—a $2.1 billion system for
processing flight data. FAA originally planned to complete ERAM by the end of
2010, but ERAM continues to experience software-related problems that have pushed
schedules well beyond original completion dates and increased costs by hundreds of
millions of dollars. ERAM’s problems are the result of a number of fundamental

5
    RNAV is a method of navigation in which aircraft use avionics, such as global positioning systems, to fly any desired
    flight path without the limitations imposed by ground-based navigation systems.
6
    RNP is a form of RNAV that adds on-board monitoring and alerting capabilities for pilots, thereby allowing aircraft to fly
    more precise flight paths.
7
    FAA’s Navigation (NAV) Lean Instrument Flight Procedures Report, September 2010.
8
    OIG Testimony Number CC-2009-086, “Challenges in Implementing Performance-Based Navigation in the U.S. Air
    Transportation System,” July 29, 2009.


                                                                                                                            5
programmatic and contract management concerns, and prolonged problems will
directly impact the cost and pace of NextGen.

ERAM Continues To Experience Software-Related Problems, Causing
Schedule Delays and Cost Overruns
Although ERAM passed testing at FAA’s Technical Center and received Government
acceptance, 9 testing at initial sites revealed significant software problems with the
system’s core capabilities for safely managing and separating aircraft. These problems
include errors that display flight data to the wrong aircraft and hand-off problems
between controllers at other facilities. FAA now plans to complete ERAM in 2014—a
delay of 4 years—and estimates it needs an additional $330 million to complete
deployment. However, a MITRE study and our analysis estimate that total cost
growth could be as much as $500 million, with potential delays stretching to 2016.

Because of problems with ERAM, controllers at the key sites have been forced to rely
on a large number of “procedural workarounds,” 10 such as re-entering flight
information for aircraft multiple times, that have increased their workload. These
cumbersome workarounds pose the risk of data entry errors and, more importantly,
take the controller’s focus away from managing and separating aircraft. Problems
with ERAM functionality are of particular concern at sites that have complex and
congested airspace such as the Chicago and Los Angeles Centers. The airspace at
these locations is divided into smaller and more heavily congested sectors that do not
allow controllers time to use workarounds to compensate for ERAM’s deficiencies.

ERAM’s persistent problems have raised concerns about the overall design of the
system, especially since we have found similar problems in another critical FAA
system. Our work on the Standard Terminal Automation Replacement System
(STARS), 11 which shares the same aircraft tracking software (tracker) with ERAM,
found similar problems with tracking aircraft and pairing associated flight plan
information that ERAM is currently experiencing. After discussing our concerns with
FAA, the Agency tasked MITRE with examining the accuracy and performance
parameters of the ERAM tracker. MITRE plans to complete its assessment next year.

FAA is taking action to address problems with ERAM. For example, FAA recently
appointed a new Director of Program Operations, created a benchmarking process for

9
     Government acceptance of ERAM by the FAA Technical Center requires meeting specific criteria established for the
     project baseline. These criteria include successfully completing developmental testing activities per the Statement of
     Work, listing all problem trouble reports, demonstrating that all contractual requirements are satisfied, and completing
     both functional and physical configuration audits.
10
     A workaround is a method or series of steps used to correct or deal with a deficiency or faulty capability in the ERAM
     software. It must be executed each time the problem occurs.
11
     STARS is an air traffic control system in use by FAA and DOD air traffic controllers to control traffic in the terminal
     environment. The terminal environment controls aircraft taxiing, departing from and arriving at airports within the
     vicinity (up to 50 miles out) of an airport. For more details, see OIG Testimony Number CC-2001-127, “Efforts To
     Develop and Deploy the Standard Terminal Automation Replacement System,” March 14, 2001.


                                                                                                                           6
identifying and resolving problems with ERAM, and established user groups of
subject matter experts and controllers. Yet, ERAM continues to face substantial risk
for cost growth, schedule delays, and performance shortfalls as the program is
deployed to more complex sites. These risks will grow as FAA and its contractor
continue to add new capabilities while attempting to resolve problems in earlier
software versions.

Cost growth with ERAM will also impact FAA’s budget for other programs. For
example, delays in fielding ERAM required FAA to maintain aging systems longer,
reprogram funds from other projects, and retrain controllers and maintenance
technicians who must operate and maintain two different systems. In the current
fiscally constrained environment, prolonged problems with ERAM and the associated
cost escalations will affect FAA’s capital budget and could “crowd out” other critical
programs.

Problems With ERAM Exposed Fundamental Weaknesses in Program
Management and Contract Oversight
Our ongoing work shows that problems with ERAM are directly traceable to
weaknesses in program management and contract oversight. Specifically:

Program Management: FAA did not establish effective program management
controls during ERAM’s planning and deployment stages. As a result, when
significant problems occurred, FAA was not well positioned to address them. For
example:

 • FAA and its contractor significantly underestimated the complexity in fielding
   ERAM. They were overly optimistic that it could be fielded to all 20 sites within
   1 year and ignored early warning signs of trouble during initial site deployment.

 • FAA did not effectively manage key site expectations to initially deploy and test
   the first ERAM software release. FAA could perform only limited software
   testing at its Technical Center and therefore did not have a full understanding of
   the maturity and stability of the software prior to deployment. As a result, the
   software was released to the key sites with significant defects.

 • FAA did not implement required program management tools to ensure ERAM
   would achieve performance and schedule goals. Specifically, the program office
   did not review the ERAM budget when required, and FAA’s risk management
   process did not begin to detect and mitigate significant risks until almost 3 years
   after software problems surfaced at Salt Lake Center, the key implementation
   site.




                                                                                    7
Contract Oversight: FAA is primarily relying on a cost-plus, incentive fee contract
to develop and deploy ERAM, but it is not structured to effectively manage
performance and control costs. In fact, FAA’s contract management vehicle not only
supports but rewards and incentivizes poor program management practices. For
example:

     • FAA did not structure the ERAM contract into small segments of deliverables.
       Typically, it is a best practice to divide large-scale information technology
       acquisitions into smaller segments that deliver requirements incrementally. This
       adds flexibility for managing schedule and costs. However, the ERAM contract
       instead called for major deliverables—such as initial software design,
       development, and testing—over multiple years. Also, the contract currently
       identifies work to be performed into units so large that FAA cannot track
       individual factors that are driving ERAM’s cost overruns.

     • FAA’s use of contract incentives did not adequately manage schedule and costs
       or achieve desired program outcomes. For instance, the ERAM contract pays out
       a cost incentive if the contractor keeps costs below a targeted ceiling. However,
       these incentives did not motivate the contractor to manage costs because when
       requirements grew, FAA simply increased the targeted ceiling for the contractor.
       At the time of our review, FAA had paid the contractor over $150 million of the
       total available cost incentives even though ERAM was at least $330 million over
       budget.

Continued Problems With ERAM Pose Risks to NextGen Initiatives
Despite the significant program risks and unresolved issues associated with ERAM,
FAA has not conducted a detailed assessment of ERAM’s interdependencies or
impact on other programs’ costs and schedules. Our work shows that ERAM’s
continuing problems could also cause significant cost growth and delays with other
systems key to FAA’s overall NextGen effort. These systems include DataComm, the
System Wide Information Management (SWIM), and ADS-B. FAA plans to allocate
about $600 million to integrate and align these systems with ERAM. ERAM delays
will also affect FAA’s ability to develop NextGen-related improvements (e.g.,
trajectory-based operations 12) and develop and transition to a common automation
platform for terminal and en route operations. In addition, ERAM delays will push
back future software enhancements to add new NextGen capabilities, such as flexible
and dynamic airspace redesign. These enhancements are estimated to cost over
$1 billion.




12
     Trajectory-based operations focus on more precisely managing aircraft from departure to arrival with the benefits of
     reduced fuel consumption, lower operating costs, and reduced emissions.


                                                                                                                       8
COSTS, SCHEDULES, AND BENEFITS ARE UNCERTAIN FOR
NEXTGEN’S TRANSFORMATIONAL PROGRAMS
Costs, schedules, and benefits are uncertain for three of the six NextGen
transformational programs—ADS-B, SWIM, and DataComm. These programs will
provide critical technologies and infrastructure for NextGen and allow for more
efficient data sharing among airspace users, a key NextGen goal. FAA plans to spend
almost $2 billion between FY 2012 and FY 2016 on these three transformational
programs. However, FAA has not yet approved the programs’ total cost or schedule
baselines nor developed an integrated master schedule to manage and coordinate
NextGen’s implementation.

FAA Has Not Fully Addressed ADS-B Requirements and System Risks
ADS-B is a satellite-based surveillance technology that combines the use of aircraft
avionics and ground-based systems. As we noted in our October 2010 report, 13 to
realize the full range of ADS-B benefits FAA must address a number of critical
issues. These include: (1) finalizing requirements for capabilities to display traffic
information in the cockpit, (2) modifying the systems controllers rely on to manage
traffic, (3) addressing broadcast frequency congestion concerns, (4) implementing
procedures for separating aircraft, and (5) assessing security vulnerabilities. While
FAA is planning to implement ADS-B in four segments, thus far it has only approved
funding for the initial 2 segments to deploy the system’s ground infrastructure. FAA
has deployed 275 of the planned 800 radio ground station and also published a final
rule mandating that airspace users equip ADS-B avionics by 2020.

FAA Faces Challenges in Establishing Clear Lines of Accountability for
Managing SWIM
SWIM is expected to form the basis for a secure network that manages and shares
information more efficiently among the air traffic systems that will comprise
NextGen. Key benefits expected from SWIM are streamlined data communications
and real-time information that will improve air traffic management, enhance airspace
capacity, reduce flight delays, and decrease costs for FAA and aviation users.

As we reported in June, 14 FAA faces significant challenges with SWIM because it has
not established clear lines of accountability for overseeing how SWIM is developed
and managed. This has made it difficult to implement requirements and control the
program’s cost and schedule. As a result, FAA has already increased costs for
SWIM’s first segment by more than $100 million (original estimate was $179 million)
and delayed its completion by at least 2 years. Without stable and consistent

13
     OIG Report Number AV-2011-002, “FAA Faces Significant Risks in Implementing Automatic Dependent Surveillance-
     Broadcast System and Realizing Benefits,” October 12, 2010.
14
     OIG Report Number AV-2011-131, “FAA’s Approach to SWIM Has Led to Cost and Schedule Uncertainty and No Clear
     Path for Achieving NextGen Goals,” June 15, 2011.


                                                                                                                9
requirements and clearly defined program priorities, FAA will not be able to define
how much it will cost or how long it will take to deploy all three SWIM segments and
realize expected benefits.

FAA Faces Industry and User Concerns With DataComm Plans
DataComm will provide two-way data communications between controllers and pilots
that is similar to wireless e-mail. Developing and implementing DataComm will be a
complex, high-risk effort, and industry officials have expressed skepticism about
FAA’s ability to deliver the program. Like ADS-B, DataComm faces the challenge of
integrating with multiple FAA automation systems. FAA has already delayed plans to
deploy DataComm’s en route capabilities from 2016 to 2018. Total acquisition costs
are uncertain, but FAA estimates that they could be as much as $3 billion.

FAA plans to implement DataComm in at least three segments and make a final
investment decision for the first segment in FY 2012. Until FAA resolves these
issues, however, users are likely to remain skeptical and reluctant to equip since FAA
abandoned the similar Controller-Pilot Data Link Communications program in 2005.
FAA did so due to concerns about cost growth and schedule delays resulting from
unplanned, additional integration requirements that posed a risk to the program as
well as concerns over how quickly airlines would equip with the avionics. 15

FAA Has Yet To Develop an Integrated Master Schedule To Manage
NextGen
FAA’s approach of baselining smaller segments of larger programs, such as these
three transformational programs, may reduce some risks in the short-term. However,
as requirements continue to evolve, programs are left with no clear end-state and
decision makers lack sufficient information to assess progress. Moreover, delays with
one program can significantly slow another, since the programs have complex
interdependencies with FAA’s existing automation and communications systems.
While FAA recognizes the need for an integrated master schedule to manage the
implementation of these NextGen capabilities, it has not yet developed one. Without a
master schedule, FAA will continue to face the challenges of fully mitigating
operational, technical, and programmatic risks, and prioritizing trade-offs among its
NextGen programs.

CONCLUSION
FAA’s multibillion-dollar effort to enhance the flow of air traffic continues to
experience management issues, leaving the costs, schedule, and expected benefits of
NextGen initiatives uncertain. The RTCA task force’s recommendations are an

15
     OIG Report Number AV-2004-101, “Observations on FAA’s Controller-Pilot Data Link Communications Program,”
     September 30, 2004.


                                                                                                          10
important stepping stone to NextGen and a way for FAA to build confidence with
users in its ability to deliver much needed benefits. Yet, much work remains for FAA
to effectively implement the RTCA’s recommendations and achieve promised near-
term benefits. Unless FAA can effectively address RTCA’s recommendations at
already congested airports, resolve problems with ERAM, and address challenges to
its transformational programs, the Agency’s ability to meet NextGen goals and
safeguard taxpayers’ investment remains at risk.

Regardless of the funding levels Congress provides for NextGen, FAA must focus its
attention on (1) NextGen budget priorities, detailed milestones, and performance
goals and metrics; (2) problems with ERAM; and (3) an integrated master schedule
for all NextGen programs. FAA needs to take actions now to advance NextGen and
protect taxpayers’ interests.

That concludes my statement. I would be happy to address any questions that you or
the other Members of the Subcommittee may have.




                                                                                 11
EXHIBIT A. KEY RTCA TASK FORCE RECOMMENDATIONS FOR
NEXTGEN’S MID-TERM PHASE

  Rec’s                Area                                 Recommended Capability

    4         Airport Surface          Improve the management of airport taxiways, gates, and parking
              Operations               areas by revamping systems for sharing information between FAA,
                                       airline operations centers and airports. Candidate locations include
                                       all major airports beginning with the New York area airports.
    5         Runway Access            Improve the use of converging or closely spaced runways during low
                                       visibility conditions. Candidate airports include Kennedy, Las Vegas,
                                       and Newark.
    4         Metroplex Airspace       Improve the capacity of airspace that affects multiple airports near
                                       large metropolitan areas, including Chicago, New York/New Jersey,
                                       and Southern California.
    4         High-Altitude Cruise     Improve high-altitude flights by, among other things, increasing the
                                       availability of real-time data on the status of airspace used jointly by
                                       civilian and military aircraft. The first candidate location is
                                       Minneapolis Center.
    2         Access to the            Improve service at smaller airports by implementing more precision
              National Airspace        approaches and departures and expanding ways to track aircraft in
              System                   non-radar airspace. Full range of candidate locations is still under
                                       development.
              Cross-Cutting
    4         Integrated Air Traffic   Create an Integrated Air Traffic Management System that leverages
              Management               new technologies and collaboration with users and implement
                                       solutions to traffic flow problems that are effectively integrated
                                       across air traffic control domains to achieve service providers’ and
                                       users’ efficiency goals.
    5         Data                     Improve cruise and transition operations by using data
              Communications           communications to enable more efficient use of available or forecast
                                       capacity in the National Airspace System. Increase the ability to
                                       better adapt to changing conditions through improved dissemination
                                       of tactical reroutes around weather forecast and congestion.
              Overarching
    1                                  Achieve existing separation standards.
    1                                  Incentivize equipage.
    1                                  Streamline the operational approval and certification processes for
                                       new flight procedures.
    1                                  Establish institutional mechanisms for transparency and
                                       collaboration in the planning, implementation, and post-execution
                                       assessments.
 Total: 32
Source: OIG




                                                                                                              12
